For Public Release
 



U.S. Department of Commerce
Office of Inspector General



2010 Census:
Quarterly Report to
Congress,
December 2009
Report OIG-19791-2
                                   Report In Brief
                                     U.S. Department of Commerce Ofﬁce of Inspector General


Why We Did This Review             2010 Census: Quarterly Report to Congress
The Supplemental Appropria-
tions Act of 2008 gave the Cen-    December 2009 (OIG–19791–2)
sus Bureau an additional $210
million to help cover spiraling
2010 decennial costs stemming      What We Found
from the bureau’s problematic
efforts to automate major ﬁeld
operations, major ﬂaws in its      Census is moving forward with important decennial operations and activities,
cost-estimating methods, and       including the completion of two major operations (address canvassing and
other issues. The act’s explana-
tory statement required the
                                   group quarters validation). However, errors in the decennial scheduling sys-
bureau to submit to Congress       tem and potential delays continue to affect management of the 2010 Census.
a detailed plan and timeline       Census also must develop a paper-based operations control system (PBOCS) to
of decennial milestones and        manage ﬁeld operations. Because this is being done on a compressed schedule,
expenditures, as well as a
                                   it represents a major risk to the decennial census. The results of system test-
quantitative assessment of as-
sociated program risks, within     ing, planned for late December, should help the bureau understand whether
30 days.                           this system will be capable of managing the 2010 Census operations.
OIG must provide quar-             For FY 2010, Census requested about $674 million in contingency funds for
terly reports on the bureau’s      key operations and activities, almost 9 percent of its total 2010 Census budget
progress against this plan.
This report’s objective was to     request. This fund— formulated with the advice of ofﬁcials from the Depart-
provide an update of activities    ment and Census—is based on the level of risk or uncertainty associated with
and operations, identify budget    key decennial activities.
and spending issues, and ex-
amine risks to the 2010 Census     Census was able to cover an $88-million (nearly 25 percent) address canvassing
programs.                          overrun by utilizing several sources, including $41 million from FY 2009 con-
Background                         tingency funds and $47 million in savings from other operations and activities.
Since ﬁrst conducted in 1790,      The bureau’s process for managing 2010 Census program risks represents a
the constitutionally mandated      signiﬁcant improvement over the previous census in 2000. However, because
decennial census ﬁeld activities
                                   the majority of its time has been spent on contingency planning, the bureau’s
have largely been administered
via paper and pencil. The 2010     Risk Review Board (RRB) has not been able to review risk ratings in detail at
Census plan included signiﬁcant    weekly meetings, as required by Census’s risk management plan. The RRB is
expansion of automation, using     working on a plan that should help Census management complete its contin-
handheld computers to verify       gency plans and actively monitor its risk management activities.
addresses (address canvass-
ing), conduct in-person surveys    This report does not provide speciﬁc recommendations. However, we will con-
with households that did not       tinue to monitor speciﬁc 2010 Census operations and activities, such as:
return their questionnaires
(nonresponse follow-up), and          • 	 Given the importance of the PBOCS in managing the workloads of
collect data from a nationwide            Census’s ﬁeldwork operations, and the short time frame available for
sample to evaluate the accuracy
                                          system development, we will continue to monitor and report on PBOCS
of the decennial count (coverage
measurement).                             development and testing in subsequent quarterly reports.
Nonresponse follow-up is the          • 	 Because of the address canvassing cost overrun, Census is currently
most expensive and labor-inten-           revising nonresponse followup (NRFU) cost assumptions, especially the
sive operation of the decennial           projected mail response rate. We will evaluate NRFU planning efforts,
census. Increasing costs and
automation problems prompted              operational effectiveness, and data quality.
the bureau’s decisions to             • 	 Census used Recovery Act funds to hire additional partnership posi-
abandon the handheld comput-
ers for nonresponse follow-up
                                          tions in hard-to-count areas. While we recognize its relatively quick
and coverage measurement                  recruitment and hiring, we will monitor the adequacy of management
operations, but to still use the          and supervisory controls over the partnership workforce.
handheld computers for address
canvassing.
                                                     UNITED STATES DEPARTMENT OF COMMERCE
                                                    The Inspector General
                                                    Washington, D.C. 20230




December 18,2009

The Honorable Alan B. Mollohan                        The Honorable Frank R. Wolf
Chairman                                              Ranking Member
Subcommittee on Commerce, Justice,                    Subcommittee on Commerce, Justice,
 Science, and Related Agencies                         Science, and Related Agencies
Committee on Appropriations                           Committee on Appropriations
U.S. House of Representatives                         U.S. House of Representatives
Washington, DC 20515                                  Washington, DC 20515

Dear Mr. Chairman and Mr. Wolf:

This report responds to the explanatory statement accompanying the Supplemental
Appropriations Act of 2008. The statement requires the Office of Inspector General to report on
a quarterly basis the status of Census's 2010 operations. Our first quarterly report, issued in
August 2009, highlighted limitations in the Census Bureau's ability to oversee the systems and
information for tracking its schedule, cost, and risk management activities during the 2010
Census. We subsequently issued a separate report to the bureau with recommendations to help
improve the program management of both the current and 2020 Censuses.

This second quarterly report provides an update on the schedule, cost, and risk management
activities, of the 2010 Census for the quarter ending September 30, 2009. Our review found that
the Census Bureau has proceeded with several major operations, but is faced with a compressed
schedule for developing a paper-based operations control system to manage its fieldwork. With
respect to cost, we discuss the bureau's efforts to revise its cost assumptions for the nonresponse
follow-up operation and its spending of funds from the American Recovery and Reinvestment
Act 01'2009. The final part of our report presents an update on the 2010 Census's program-level
risks.

We have sent identical letters to the Chairman and the Ranking Member of the Senate
Subcommittee on Commerce, Justice, Science and Related Agencies.

If you have any questions, or if we can be of further assistance, please do not hesitate to contact
me at (202) 482-4661.

Sincerely,




Todd J. Zinser


Enclosure
cc:	 	   Representative Patrick J. Kennedy
         Representative Chaka Fattah
         Representative Adam Schiff
         Representative Michael Honda
         Representative C.A. "Dutch" Ruppersberger
         Representative Peter J. Visclosky
         Representative Jose E. Serrano
         Representative David R. Obey, Ex Officio
         Representative John Abney Culberson
         Representative Robert B. Aderholt
         Representative Jo Bonner
         Representative Jerry Lewis, Ex Officio
                                                     UNITED STATES DEPARTMENT OF COMMERCE
                                                    The Inspector General
                                                    Washington, D.C. 20230



December 18, 2009

The Honorable Barbara A. Mikulski                     The Honorable Richard C. Shelby
Chairwoman                                            Ranking Member
Subcommittee on Commerce, Justice,                    Subcommittee on Commerce, Justice,
  Science and Related Agencies                          Science and Related Agencies
Committee on Appropriations                           Committee on Appropriations
United States Senate                                  United States Senate
Washington, D.C. 20510                                Washington, D.C. 20510


Dear Madam Chairwoman and Senator Shelby:

This report responds to the explanatory statement accompanying the Supplemental
Appropriations Act of 2008. The statement requires the Office of Inspector General to report on
a quarterly basis the status of Census's 2010 operations. Our first quarterly report, issued in
August 2009, highlighted limitations in the Census Bureau's ability to oversee the systems and
information for tracking its schedule, cost, and risk management activities during the 2010
census. We subsequently issued a separate report to the bureau with recommendations to help
improve the program management of both the current and 2020 censuses.

This second quarterly report provides an update on the schedule, cost, and risk management
activities, of the 2010 census for the quarter ending September 30, 2009. Our review found that
the Census Bureau has proceeded with several major operations, but is faced with a compressed
schedule for developing a paper-based operations control system to manage its fieldwork. With
respect to cost, we discuss the bureau's efforts to revise its cost assumptions for the nonresponse
follow-up operation and its spending of funds from the American Recovery and Reinvestment
Act of 2009. The final part of our report presents an update on the 2010 census's program-level
risks.

We have sent identical letters to the Chairman and the Ranking Member of the House
Subcommittee on Commerce, Justice, Science and Related Agencies.

If you have any questions, or if we can be of further assistance, please do not hesitate to contact
me at (202) 482-4661.

Sincerely,




Todd J. Zinser


Enclosure
cc:	 	     Senator Daniel Inouye
           Senator Patrick Leahy
           Senator Herb Kohl
           Senator Byron Dorgan
         . Senator Dianne Feinstein
           Senator Jack Reed
           Senator Frank Lautenberg
           Senator Ben Nelson
           Senator Mark Pryor
           Senator Judd Gregg
           Senator Mitch McConnell
           Senator Kay Bailey Hutchison
           Senator Lamar Alexander
           Senator George Voinovich
           Senator Lisa Murkowski
                     OIG Quarterly Report to Congress, December 2009 



                                                                 Contents


Introduction..................................................................................................................................... 1
 

Chapter 1: Update on the 2010 Census Schedule .......................................................................... 2
 

   Census Is Moving Forward with Important Decennial Operations and Activities .................... 2
 

   Errors in the Scheduling System and Potential Delays Continue to Affect 2010 Census 

   Management................................................................................................................................ 3
 

   Census Faces a Compressed Development Schedule for Its Paper-Based Operations Control 

   System ......................................................................................................................................... 4
 

Chapter 2: Update on 2010 Census Costs....................................................................................... 6
 

   Address Canvassing Was Completed Early, but Nearly 25 Percent over Budget ...................... 6
 

   Census Is Revising Cost Assumptions for Nonresponse Follow-up.......................................... 10
 

   Census Has Budgeted Contingencies for Its FY 2010 Operations ........................................... 10
 

   Census Is Using $1 Billion from the Recovery Act to Enhance and Support 2010 Operations 11
 

   Census Used Recovery Act Funds to Hire Additional Partnership Positions in Hard-to-Count 

   Areas, but Employee Supervision Remains a Concern............................................................. 12
 

Chapter 3: Update to Census’s Risk Management Activities ....................................................... 14
 

   Census Has Not Changed Existing Risk Ratings ...................................................................... 14
 

   Work on Contingency Plans Continues, but None Are Complete ............................................. 16
 

   Census Staff Is Developing Plans to Address the Risk of an H1N1 Influenza Outbreak .......... 16
 

Appendix A: Objectives, Scope, and Methodology..................................................................... 18
 

Appendix B: Fieldwork Operations Managed by the Paper-Based Operations Control System 19
 

Appendix C: Address Canvassing Field Budget by Regional Census Center ............................. 20
 

                OIG Quarterly Report to Congress, December 2009 



                                             Introduction
The Supplemental Appropriations Act of 2008, enacted June 30, 2008, gave the U.S. Census
Bureau an additional $210 million to help cover spiraling 2010 Census costs. The act’s
explanatory statement required Census to formulate a detailed plan encompassing a timeline of
decennial activities, cost estimates, and risk management activities. This information and
subsequent updates of Census’s progress are the measures we review in preparing our quarterly
reports.

Our first quarterly report, issued in August 2009, highlighted limitations in the Census Bureau’s
ability to oversee the systems and information for tracking its schedule, cost, and risk
management activities during the 2010 Census. We subsequently issued a separate report to
Census with recommendations that we believe would help improve the program management of
both the current and 2020 Censuses.1

This quarterly report references 2010 Census activities that occurred from June through
September 2009 and includes more current information when available. The report has three
areas of focus: chapter 1, which highlights major operations and activities performed by Census
during this review period, issues affecting the decennial schedule, and Census’s effort to develop
a paper-based operations control system (PBOCS) to manage its fieldwork; chapter 2, which
discusses cost overruns for the address canvassing operation, revisions to cost assumptions for
the nonresponse follow-up (NRFU) operation, contingency funds for fiscal year (FY) 2010
operations, and spending of the American Recovery and Reinvestment Act of 2009 funds for the
2010 Census; and chapter 3, which presents an update on program-level risks to the decennial
census. See appendix A for a complete outline of our objectives, scope, and methodology.




1
 For specific information on our findings and recommendations, see 2010 Census: First Quarterly Report to
Congress, OIG-19791-1, U.S. Department of Commerce, Office of Inspector General, August 2009; and
Recommendations from 2010 Census: First Quarterly Report to Congress, OIG-19791-1. OIG reports are available
on our Web site, www.oig.doc.gov.

                                                      1

                OIG Quarterly Report to Congress, December 2009 



                                          Chapter 1:
 

                              Update on the 2010 Census Schedule 

To manage the 44 major operations that make up the 2010 Census, the Census Bureau maintains
a schedule of activities containing about 9,400 program and project-level activities. Project-level
teams monitor their own activity schedules while Decennial Management Division staff manages
the integration of all scheduled activities and operations, and any changes to those activities. The
Census Integration Group (CIG), which has primary oversight of the 2010 Census, reviews at
weekly meetings those activities deemed critical to the success of the 2010 Census.

During our review, operations appear to have proceeded on schedule. However, future decennial
activities as tracked by CIG in its project management system continue to appear to be late due
to incorrect information in the system and actual delays, both of which require corrective action
by project teams. In addition, because the Field Data Collection Automation (FDCA) contract
was modified late last year, the Census Bureau assumed responsibility for developing the
PBOCS and faces a compressed development and testing schedule for the system. The PBOCS is
critical for coordinating its operations in 2010; we and the bureau both view the tight schedule as
a major risk to decennial operations. Without this system in place and fully functioning, Census
may find it difficult to maintain its schedule and carry out its enumeration operations next year.


Census Is Moving Forward with Important Decennial Operations and Activities

During this review period, Census completed two major fieldwork operations. It also proceeded
with activities in support of 2010 operations. Address canvassing—Census’s major operation for
updating its master address list of residential households nationwide—was completed 1 week
ahead of schedule but over budget by nearly 25 percent ($88 million). Census’s 4-week-long
Group Quarters Validation operation, which lasted from late September to late October 2009,
finished under budget by 41 percent—a savings of $29 million. Finally, in mid-August Census
began setting up local Census offices in support of the NRFU operation. This deployment
appears to be on schedule.2

Address Canvassing. On July 10, 2009, the Census Bureau completed its address canvassing
operation, which used specially made handheld computers to update its master address file. The
operation began on March 30, 2009, and entailed about 140,000 temporary workers based out of
151 local Census offices canvassing the country in an attempt to locate all possible living
quarters. Census will use this list to deliver questionnaires to households and other living
quarters in early 2010. In February 2009, the address canvassing workload reached almost
145 million addresses—about 11 million more than Census’s original projections—because of
updates to the address list from local governments and the U.S. Postal Service, among other
reasons. By deleting nonexistent, duplicate, and nonresidential addresses and adding new ones
2
  NRFU is the most expensive and labor-intensive operation of the 2010 Census, requiring hundreds of thousands of
temporary workers visiting millions of households that did not return their questionnaires, in order to collect the
necessary census information.

                                                         2

                OIG Quarterly Report to Congress, December 2009 


during the operation, the size of the decennial address list was reduced to about 134 million,
which is the basis for subsequent enumeration operations.

The completion of address canvassing represents a major milestone for the 2010 Census.
However, given our long-standing reservations about the operation’s effectiveness and our
observations during this operation, we are concerned about the reliability of the address list.
Consequently, we have recently identified actions that Census should consider to assess and
potentially improve the quality of its master address file.

Group Quarters Validation. With address canvassing completed, Census embarked on its Group
Quarters Validation operation, which aimed to verify information from each one of the estimated
2 million potential group quarters nationwide. The list of potential group quarters was derived
from the address canvassing operation and from predefined sources, such as Census 2000 group
quarters information, Internet searches, and address updates from local governments. Group
quarters—facilities where individuals live in group arrangements, such as nursing homes,
correctional facilities, and college residence halls—are counted separately from housing units
(e.g., single-family homes and apartments). Fieldwork for this operation took place between
September 28 and October 23, 2009, and involved about 25,000 temporary workers based out of
the same local Census offices used for address canvassing. For this operation, Census spent over
$41 million out of a field budget of over $70 million (about 59 percent). Out of the $41 million,
$27.4 million was spent on fieldwork and $13.6 million was spent on training. Based on this
figure, it appears that Census successfully managed the costs for this operation. We are
conducting a review of the bureau’s activities to assess the quality of the operation.

Infrastructure. In August 2009, Harris Corporation, Census’s contractor for the FDCA contract,
began deploying an additional 344 local Census offices in preparation for next year’s NRFU
operation. Census plans to bring the total number of offices required for NRFU to 494 by
December 31, 2009.3 This effort entails leasing office space, having the lessor make necessary
office renovations and improvements (such as erecting and/or tearing down walls, installing
security fixtures, and constructing wheelchair ramps), and having Census Bureau contractors
install furniture and telecommunications equipment (such as computers, phones, facsimile
machines, and printers). Harris (responsible for the equipment installation) planned to complete
26 offices each week through November and finish the last 19 in December. All offices were
opened by December 8, 2009, which is 23 days ahead of schedule. Census and Harris opened all
local Census offices needed for 2010 operations on time, in contrast to the deployment effort for
address canvassing in late 2008 and early 2009.


Errors in the Scheduling System and Potential Delays Continue to Affect 2010 Census
Management

Throughout our review period, two problems—errors in the 2010 Census scheduling system and
potential delays—affected a number of activities on CIG’s weekly critical alert report, which

3
 The early local Census office in Puerto Rico that was used for address canvassing is included in the number of
additional offices requiring renovation for use during NRFU.

                                                         3

              OIG Quarterly Report to Congress, December 2009 


tracked an average of 63 activities. Scheduling system errors among dependent activities occur
because activities have wrong start and finish dates, incorrect dependent relationships, or
durations that are too long or short. Potential delays appear in the schedule when start and finish
dates for activities that depend on the completion of a prior activity are misaligned. Weekly
reports showed that a logic error or a delay affecting one activity can have a cascading effect on
related activities that follow. Because Census did not thoroughly review the schedule after it was
developed, it continues to encounter schedule errors that require staff to spend time and
resources to resolve. These problems are identified weekly by project teams and are resolved
through consultations among the teams and the implementation of schedule change requests,
which often take several weeks. But because scheduling system errors and potential delays are
likely to continue to affect management decisions for the remainder of the decennial, Census
should ensure that both problems are resolved quickly so as not to affect actual operations, which
occur in quick succession in 2010.


Census Faces a Compressed Development Schedule for Its Paper-Based Operations
Control System

In April 2008, the Department and the Census Bureau announced significant changes to the 2010
Census design and FDCA contract. Among them was the decision to revert to a traditional paper-
based NRFU from an automated one using handheld devices to collect household information.
Following a contract modification in November 2008, the responsibility for developing a
PBOCS to manage the workload for 2010 Census operations transferred from Harris Corporation
to Census. Census personnel are developing and testing the system’s software supported by
programmers under a $37-million contract awarded to a different company, ICS.

The PBOCS comprises 10 applications, each one managing a different operation occurring in
2010, including NRFU (see appendix B for a list of operations supported by the PBOCS).
Because of the late contract change, the Census Bureau is faced with an aggressive development
and testing schedule for the PBOCS, which, according to an independent assessment, has been
compressed by two-thirds of what it would be under normal circumstances. Census has
scheduled the first three PBOCS applications’ release for January 15, 2010, to manage its
Remote Alaska, Group Quarters Advance Visit, and Update/Leave operations. With respect to
the NRFU application, testing is scheduled to end March 1, with deployment on March 22. This
short period leaves little time for last-minute revisions, which must be finalized in order to allow
time to train staff, beginning the following week, at all 494 field offices to use the system. The
NRFU operation begins on May 1, 2010. To mitigate this risk, the Census Bureau is testing the
system as it is being developed. In addition, many of the functionalities required for earlier
operations such as Remote Alaska and Update Leave will continue to be used in subsequent
operations, allowing the more expensive NRFU operations to benefit from testing and
deployment in predecessor operations. Nevertheless, PBOCS development remains a high risk
activity.

More importantly, Census’s ability to effectively manage its enumeration operations and fulfill
its mandate of counting the country’s population hinges on its operations control system.
Described by Census as the nerve center of its field offices, the PBOCS is needed to perform

                                                 4

              OIG Quarterly Report to Congress, December 2009 


important tasks, such as defining enumerator assignments, providing current information on
enumerator productivity, printing materials for the operation, and shipping completed
questionnaires for processing. Without an effectively functioning PBOCS, hundreds of thousands
of nonresponse follow-up enumerators may not be able to receive their assignments, and Census
managers may not be able to monitor an operation's progress, jeopardizing its completion.

Recognizing the challenge with developing this system, Census in June 2009 created an
independent assessment team composed of staff from Census and the Department of Commerce,
as well as outside contractors, to conduct an in-depth review of the PBOCS development project.
In August 2009, the assessment team provided a baseline of risks, findings, and
recommendations that Census needed to address, as well as a timeline for completing key
activities to guide the development team in its efforts to complete the project on schedule. The
team deemed system integration and deployment the two activities at highest risk, requiring
immediate attention. Activities at medium risk included system development, security,
functionality, and performance. As a way to mitigate the impact of the compressed schedule,
Census has embedded IT security specialists within the development team to ensure that it
addresses security concerns as it creates the system. Census acknowledges that this activity in
support of NRFU and other major decennial operations is a top priority, and plans to have the
assessment group brief the director on a monthly basis. However, Census’s most recent briefing
to the director in early November covered the progress of PBOCS development for the months of
September and October.

The bureau is including the PBOCS in the Decennial Applications Load Test in December 2009
as part of larger field tests of decennial operations. This will help staff assess the system’s
performance and identify problems that require corrective action. Also, Census plans for each
release of PBOCS to undergo independent load testing. The results of PBOCS’ ongoing testing
as well as information gathered during the load test are intended to provide the bureau with an
understanding of whether this system will be capable of managing the 2010 Census operations.
Given the importance of the PBOCS in managing the workloads of Census’s fieldwork
operations and the short time frame available for system development, we will continue to
monitor and report on PBOCS development and testing in subsequent quarterly reports.




                                               5

              OIG Quarterly Report to Congress, December 2009 



                                       Chapter 2:
 

                               Update on 2010 Census Costs 

The 2010 Census lifecycle cost estimate currently stands at $14.7 billion, having increased
$3.2 billion over the last 2 years. The increase resulted in part from the decision to halt
development, due to contract and development problems, of the handheld computers for use in
Census operations beyond address canvassing. Revisions to budget assumptions made earlier in
the decade also contributed to the overall increase. Finally, the Census Bureau received $1
billion in Recovery Act funds to improve communications and outreach ($250 million) and fund
early operations ($750 million).

Census completed address canvassing in July 2009 and used FY 2009 contingency funds and
some of the remaining balances from other operational areas to fund a cost overrun of
$88 million. For FY 2010, Census requested a budget of approximately $6.7 billion for the
decennial census, which includes $674 million for contingencies related to 10 major operations
and activities (described later in this chapter). Census planned its contingencies with input from
Department of Commerce.


Address Canvassing Was Completed Early, but Nearly 25 Percent over Budget

Census’s 3-month address canvassing operation was completed this past July, involving more
than 140,000 temporary workers (called listers) from 151 local Census offices throughout
12 regions of the country, using handheld computers to update addresses and maps of living
quarters. While this is an accomplishment worth noting given that this was Census 2010’s first
major decennial field operation, Census’s budget estimate of about $356 million was inadequate.
The final cost of the operation was about $444 million—nearly 25 percent over budget.

Census staff provided several reasons for the overrun (see table 1):

                            Table 1. Cost Overruns During Address 

                                  Canvassing ($s in millions) 

                     Reason                                             Overrun
                     Increased initial address canvassing
                     workload                                                $41
                     Underestimated quality control workload                  34
                     Fingerprinting*                                           6
                     Training additional staff                                 7
                       Total                                                 $88
                     *Fingerprinting costs were charged to the training budget
                     instead of to a separate fingerprinting budget.
                     Source: U.S. Census Bureau




                                                  6
                                            OIG Quarterly Report to Congress, December 2009

This $88-million overrun is partially attributable to the fact that Census predicted a higher
employee turnover rate than was actually experienced, due to the high rate of unemployment.
Census was able to cover this $88-million overrun from several sources, including $41 million
from FY 2009 contingency funds, $7 million from its fingerprinting budget for address
canvassing, $4 million from its large block operation, and $36 million in savings from other
activities.

Census performed address canvassing fieldwork in two phases: production and quality control.
Most workers were production listers who canvassed their assignment areas to update their
addresses and maps. Once they completed those areas, quality control listers in the field
conducted checks of address samples to ensure accuracy. Throughout the country, production
and quality control listers used private vehicles to complete their assignments; Census
reimbursed them at a rate of 55 cents per mile driven.

Cost and progress data showed that increased workloads for quality control as well as mileage
reimbursement expenses for local travel during both stages of the operation resulted in cost
overruns at varying levels throughout all Census regions. Figure 1 shows the cost overrun for
production fieldwork, by regional Census office.4


                                            Figure 1. Address Canvassing Production Budget Spent
                                     200
    Percent of Address Canvassing 




                                     180
      Production Budget Spent




                                     160
                                     140
                                     120
                                     100 
                                     100
                                      80
                                      60
                                      40
                                      20
                                       0




                                                                 Wages   Travel


Source: OIG analysis of U.S. Census Bureau data

Not all regions experienced the same budget fluctuations. For example, Charlotte, Chicago,
Detroit, Kansas City, and Philadelphia all experienced lower than anticipated wages. Yet local
travel costs were over budget for each of these regions except Philadelphia. Conversely, Boston,


4
 See Appendix C for detailed data on production and quality control budgets versus actual costs. The category
“Travel” in figures 2 and 3 denotes the cost of listers’ mileage reimbursement.

                                                                     7
                                                  OIG Quarterly Report to Congress, December 2009

Los Angeles, and New York each spent more for wages than budgeted, yet were under budget
with respect to local travel costs.

Figure 2 shows cost overruns by regional Census office of the address canvassing quality control
task and the percentage of assignment areas performed by production staff that failed the
verification phase of the operation.


                                            Figure 2. Address Canvassing Quality Control Budget Spent and
   Percent of Address Canvassing Quality




                                                                Fieldwork Failure Rate




                                                                                                                                    Assignment Area Failure Rate by percent
                                           600                                                                               14.0
           Control Budget Spent 




                                           500                                                                               12.0
                                                     11.4
                                                            10.6                                               10.2          10.0
                                           400                                                                        8.6
                                                                           8.3         8.6               8.7
                                                            7.9                  8.1                                         8.0
                                           300                      7.2                                                7.5
                                                                                        5.9                                  6.0
                                           200
                                                                                                                             4.0
                                           100
                                           100                                                                               2.0
                                             0                                                                               0.0




                                                                   Wages     Travel    AA failure rate


Source: OIG analysis of U.S. Census Bureau data

Clearly, the quality control part of address canvassing finished significantly over budget. Each
region overspent its budgets for wages and travel costs with the exception of New York, which
spent only 77 percent of its travel budget. Although the rate at which assignment areas failed
quality control might be offered as an explanation of why costs were over budget, it is difficult to
conclude that. For example, New York had a failure rate of 10 percent, yet was 23 percent over
budget on wages and 23 percent under budget on travel costs. In contrast, Denver’s failure rate
was 8 percent, yet its wages and travel budget overruns combined was the most of any region.

Another possible explanation of the cost overruns is the composition of the regions. The Census
Bureau classifies each office by the predominant type of address within its boundaries. Figure 3
on the following page shows the breakdown of each region by the type of local Census office.




                                                                                 8
                                      OIG Quarterly Report to Congress, December 2009

                                            Figure 3. Type of Local Census Office by Region
                               100%                          5%      5%                                                5%
                                                                                            10%                  7%
                                90%           18%    23%                                                   25%
                                                                                     28%
   Type of Office by Percent




                                                                             36%                                       21%
                                80%           3%                                                     38%
                                70%   64%     16%
                                                                                                           17%
                                60%                          73%               5%                    5%
                                                                     79%                                         77%   38%
                                50%                                                         77%
                                                                                     47%
                                40%           47%    77%
                                                                             50%
                                30%                                                                  57%   58%
                                      24%                                                                              29%
                                20%
                                                             23%                     26%
                                10%           15%                    15%                    13%                  15%
                                      12%                                      8%                                      7%
                                 0%




                                            Urban/Hard to Count    Suburban/Rural          Urban/Metropolitan 
                                            Rural/Remote           Puerto Rico             Alaska 

Source: OIG analysis of U.S. Census Bureau data


Similar to figures 1 and 2, it is also difficult to conclude that the type of local Census office,
whether located in urban, suburban, or rural areas, determined the extent to which a region
overspent its budget on wages or travel. For example, one might conclude that Denver’s more
than 500 percent travel budget overrun for quality control could be explained by the fact that half
its local Census offices were classified as suburban/rural. Yet 77 percent of the offices in the
Philadelphia region were suburban/rural, and its quality control travel budget was 221 percent of
budget.

Therefore, it is not clear from looking at the fieldwork failure rate and the makeup of each region
why regions were over or under their aggregate budget. We analyzed different data sets from the
address canvassing operation and could not establish a causal relationship between cost overruns
and a region’s performance or office makeup. Such wide variations in budget overruns, which
should be minimal, raises questions about the bureau’s original budget assumptions for and
management of the operation. An in-depth analysis of cost estimates, expenditures from each
local Census office, and workload data would be needed to better understand the budget
variances. Census staff informed us that it was conducting an internal review of the address
canvassing budget overruns but could not say when its work would be completed. Our office is
conducting a review of address canvassing lister travel costs to assess whether budget variances
resulted from flawed cost models or the inefficient allocation of resources that might inform
NRFU cost estimates.




                                                                           9
              OIG Quarterly Report to Congress, December 2009 


Census Is Revising Cost Assumptions for Nonresponse Follow-up

Census followed a detailed process to develop its NRFU cost estimate, currently at $2.7 billion.
However, because of its address canvassing cost overrun and changes in the economy, Census is
in the process of revising its current NRFU cost assumptions, especially the projected mail
response rate (currently 64 percent). According to Census, each percentage point increase in this
rate equals $80–90 million in savings. Conversely, each percentage point decrease would result
in additional costs of a similar amount. Two additional significant items that Census is reviewing
are (1) the impact of housing vacancies, which could be significant given the large number of
recent foreclosures, and (2) the impact of replacement mailing (i.e., sending an additional
questionnaire to households that have not returned their original ones). Census still needs final
data from its address canvassing operations to complete revisions to its NRFU cost assumptions.
Recognizing the uncertainty and risk in its NRFU projections, Census has requested a
contingency fund of almost $411 million for FY 2010 (see the following section). At the time of
our review, a final estimate was anticipated by mid-November 2009.


Census Has Budgeted Contingencies for Its FY 2010 Operations

For FY 2010, Census requested about $674 million in contingency funds for key operations and
activities. This is equivalent to 8.9 percent of its $6.7 billion request for the short form
component of the 2010 Decennial Census program. This fund was formulated with the advice of
officials from the Department, Census, and Office of Management and Budget, and is based on
the level of risk or uncertainty associated with key decennial activities. Activities were assigned
contingency amounts of about 5, 10, and 15 percent above the estimated cost of those activities.
Under this methodology, NRFU was assigned an additional 15 percent in contingency funds,
which is nearly $411 million, based on the estimated $2.7 billion cost for this operation. Table 2
shows each activity that was assigned a contingency amount for FY 2010. Projected spending for
these activities combined represents nearly two-thirds of the budget request for this current fiscal
year.

    Table 2. FY 2010 Obligations and Contingency Fund Amounts for the 2010 Census
                                     ($ in Millions) a


                                                                   Approximate
                                                        FY 2010    Contingency           FY 2010
                                                         Budget        Amount        Contingency
Key Activity                                            Request     Percentage           Amount
Local Census office space                                 $183.4          10%               $18.3
Coverage measurement field operations                       56.4            15                8.5
Nonresponse follow-up operation                          2,743.8            15              410.6
Vacant/Delete check operation                              341.4            10               34.1
Update/Leave operation                                     116.1            10               11.6
National Processing Center operations                      160.6            10               15.9



                                                10 

              OIG Quarterly Report to Congress, December 2009 


                                                                      Approximate
                                                          FY 2010     Contingency            FY 2010
                                                           Budget         Amount         Contingency
Key Activity                                              Request      Percentage            Amount
Puerto Rico activities                                        54.3             10                 5.4
Postage                                                     257.2               5                12.9
FDCA de-scoped activities                                    32.6              15                 4.9
Decennial Response Integration System
contract and project management office                       558.1                 10             50.8
Fingerprinting                                               101.4               100             101.4
                                    Subtotal              $4,605.4               14.6           $674.4
Other 2010 Census activities                              $2,963.0                  0               $0
                          Total Obligationsb              $7,568.4              8.9%            $674.4
a
 Figures have been rounded.
b
 This figure includes the FY 2010 request of $6.7 billion and an estimated $897.9 million of Recovery
Act funding.
Source: U.S. Census Bureau

Census staff stated in September 2009 that they expected to spend roughly what they planned for
FY 2009 and were not aware at the time of any costs that would run significantly under budget
projections. According to Census, a total of $17.1 million was carried over into FY 2010 for the
short form program, which includes $16.3 of the $200 million contingency fund from FY 2009.
With that carryover, the amount available for contingencies in FY 2010 would total $690.7
million.


Census Is Using $1 Billion from the Recovery Act to Enhance and Support 2010
Operations

The Census Bureau received $1 billion
                                          Table 3. Planned Spending of Recovery Act 

in funds from the Recovery Act to
improve communications and outreach,                   Funds ($s in millions) 

as well as to fund early operations for  Census Activities/Operations               Amount
the 2010 Census. Census prepared         Communications    and Outreach             $250
spending plans for the allocation          • Coverage follow-up enhancement              $30
covering the following four areas:         • Partnership program enhancement           $120
(1) field operations; (2) coverage         • Public outreach                           $100
follow-up; (3) advertising; and (4) a    Early Census Operations                    $750
partnership program for the distribution   • Group Quarters operations                 $138
of funds used to hire additional           • Update/Leave operation                    $116
personnel, provide required training,      • Update/Enumerate operation                $108
increase targeted media purchases, and     • Local Census office staffing operation    $388
improve management of other
                                         Source: U.S. Census Bureau
operational and programmatic risks.
Table 3 shows the planned spending
breakdown of Census Recovery Act funds. The $250 million allocated for communications and
                                                  11 

               OIG Quarterly Report to Congress, December 2009 


outreach is a net increase to those budgets. In contrast, the remaining $750 million for early
census operations that take place in FY 2010 resulted in reduced budget requests for those
activities.5 According to Census, it spent $100.4 million of Recovery Act funds in FY 2009 and
will spend the remaining $899.6 million in FY 2010.


Census Used Recovery Act Funds to Hire Additional Partnership Positions in Hard-to-
Count Areas, but Employee Supervision Remains a Concern

The Census Bureau is using $120 million to enhance the decennial partnership program,
designed to raise awareness of and trust in the decennial census. It used part of the money to hire
an additional 2,027 positions to increase partnerships in hard-to-count communities and expand
efforts to reduce historical undercounts of communities least likely to be counted (see table 4).
The majority of these new hires are partnership assistants, which are newly created positions
reporting to the professional partnership staff. The staff, in turn, is composed primarily of
partnership specialists located at the local Census offices. Figure 4 shows the distribution of
partnership specialist and assistant positions by region following the infusion of Recovery Act
funds.

                         Table 4. 2010 Census Partnership Positions
                                           Professional Partnership                Total
                 Funding               Partnership Staff Assistants                 Staff
                 Base                               680           0                  680
                 Recovery Act                       277       1,750                2,027
                  Total                             957       1,750                2,707
                 Source: U.S. Census Bureau




5
 Census Bureau Submits to Congress Proposed Recovery Plan to Help Create Jobs and Conduct a Successful 2010
Census, U.S. Census Bureau, April 10, 2009, http://www.census.gov/Press-
Release/www/releases/archives/2010_census/013536.html.

                                                    12 

                                  OIG Quarterly Report to Congress, December 2009

                                  Figure 4. Partnership Staff Distribution by Census Region
                            350
      Number of Positions

                            300
                            250
                            200
                            150
                            100
                             50
                              0




                            Partnership Specialists (Base)   Partnership Specialists (ARRA)   Partnership Assistants (ARRA)

  Source: OIG analysis of U.S. Census Bureau data

Headquarters allocated the new positions based on hard-to-count areas and regional
considerations, such as a multitude of languages spoken. Unlike with permanent staff, Census
conducted recruitment and hiring through local Census offices, which allowed Census to fill all
its partnership positions in about 3 months. Census believes that additional partnership staff
results in more contacts with community organization leaders, greater presence at community
events, and better follow-through with partner organizations.

While we recognize Census’s relatively quick recruitment and hiring, we are concerned about the
ability of the partnership specialists to effectively supervise these new employees. Prior to the
hiring of partnership assistants, Census never intended partnership specialists to have supervisory
responsibilities, with a few exceptions. Recognizing this challenge, Census officials quickly
organized initial supervisory training for the specialists, which we observed at one location, and
will offer continuous supervisory training as needed. Because these partnership assistants are
geographically dispersed and could be working far from their supervisors, we will monitor the
partnership program and Census’s accountability of these employees’ performance.




                                                                         13
                 OIG Quarterly Report to Congress, December 2009 



                                       Chapter 3:

                      Update to Census’s Risk Management Activities 

Census uses a risk register currently comprising 24 program-level risks6 that describes (1) each
risk; (2) its manager; (3) the likely impact on cost, schedule, technical performance, and meeting
stakeholder expectations; (4) time frames; and (5) the probability of occurrence. The probability
for each risk is rated high (likely), medium (somewhat likely), or low (unlikely)—colored red,
yellow, or green, respectively, in the register. Each risk falls within one of six categories7 (e.g.,
staffing and budget) and must have a plan that defines mitigation strategies and specific actions,
time frames, and resources for their implementation.

The Risk Review Board (RRB)—a subgroup of the CIG—plays a key role in overseeing risk
management activities, such as determining whether a risk requires a contingency plan if the
issue is triggered by a missed date or event. The bureau’s process for managing 2010 Census
program risks represents a significant improvement over the previous census in 2000, which
lacked a formal risk management process. As discussed in our first quarterly report this past
August, Census reported 7 high, 14 medium, and 3 low-level risks. For the period June–
September 2009, it did not make changes to risk ratings from the first quarterly report but did
close one risk and added another.

Census Has Not Changed Existing Risk Ratings

Census’s register of 24 program-level risks presents a snapshot of high-level challenges facing
the 2010 Census. Table 5 shows that risk ratings have remained constant since June 2009, with
two exceptions. Due to the completion of the address canvassing operation in July 2009, the risk
“Handheld Solution,” previously a medium risk, was removed from the register. That same
month, the board added a new high risk entitled “Litigation that Threatens the Delivery of
Apportionment and Redistricting Data” to mitigate the risk that the bureau might not deliver
census data on schedule because of possible lawsuits from stakeholders disputing Census’s data
and contesting the bureau’s procedures, methodology, or statistical adjustments. Such lawsuits
have occurred during past decennial censuses and may happen again during the 2010 Census. By
law, the bureau must deliver apportionment data to the President by December 31, 2010, and
redistricting data to the states by April 1, 2011.8 Because this is a new risk, Census is currently
preparing a mitigation plan and assessing whether a contingency plan is necessary.




6
  Program-level risks are those that may affect overall program cost, schedule, and technical and compliance 

objectives. 

7
  Census has not yet categorized the new risk entitled “Litigation that Threatens the Delivery of Apportionment and

Redistricting Data.” 

8
  13 U.S.C. §§ 141(b) - (c) (2008). 


                                                        14 

              OIG Quarterly Report to Congress, December 2009 



     Table 5. Changes in Program-Level Risk Ratings, June–September 2009 

                                                                             June      Sept.
Risk Grouping     Risk Name                                                  2009      2009
                  Handheld solution a                                       Medium
                  Contract management issues                                 High       High
Operations        Late design change                                         High       High
and Systems       Address Canvassing and Group Quarters Validation
Risks             operational control system solutions                      Medium    Medium
                  2010 operational and system failures                       High      High
                  FDCA decentralization/reintegration                        High      High

                  Housing unit duplicates and misses                         High      High
                  Exception enumeration quality                              Low       Low
Quality Risks     Inaccurate Puerto Rico address list                       Medium    Medium
                  Data quality                                              Medium    Medium
                  Person over-coverage and under-coverage                   Medium    Medium

                  IT security breach                                        Medium    Medium
Public            Loss of confidential data                                 Medium    Medium
Cooperation       Respondent cooperation                                    Medium    Medium
Risks             Stakeholder support                                       Medium    Medium
                  Immigration policy backlash                               Medium    Medium

Major             Major disaster's effect on population                       High      High
Disasters
Affecting         Continued operations of critical infrastructure during
Population        disasters                                                 Medium    Medium

                  Permanent staff retention                                   Low       Low
Staffing Risks
                  Inability to recruit sufficient temporary workforce         Low       Low

                  Uncertainty of assumptions in cost model                  Medium    Medium
Budget Risks      Continuing resolution                                     Medium    Medium
                  Insufficient funding                                      Medium    Medium

Schedule          Falling behind schedule on key milestones                   High      High

                    Litigation that threatens the delivery of apportionment
                                                                                         High
                    and redistricting datab, c
a
  Handheld solution risk was closed in July 2009 with the completion of address canvassing.
b
  Risk has yet to be categorized.
c
  Risk had not yet been created.
Source: OIG analysis of U.S. Census Bureau data




                                                  15 

              OIG Quarterly Report to Congress, December 2009 


With the majority of its time spent reviewing drafts of contingency plans, the RRB has not been
able to review risk ratings in detail at its weekly meetings, as required by Census’s risk
management plan. The RRB is responsible for overseeing the risk ratings and verifying whether
individual risk managers are correctly monitoring and assessing their respective risks through
status updates to the RRB on each risk. Without this oversight, it is possible that the risk register
may not reflect the current status of high-level risks to Census stakeholders. The RRB’s role
becomes increasingly important as major decennial operations scheduled for 2010 draw near,
requiring close monitoring of activities so that mitigation and contingency plans can be
implemented at the correct time. To address the issue of not regularly reviewing its risk ratings,
the RRB has recently begun developing a template for assessing and documenting the status of
all risks on a monthly basis. The RRB will use the new template to document and review all risks
on the risk register during new monthly meetings until the contingency plans are finalized,
consistent with the risk management plan’s requirement. This arrangement, once implemented,
should help Census management complete its contingency plans and actively monitor its risk
management activities.


Work on Contingency Plans Continues, but None Are Complete

Census had previously decided that 11 of its 24 program-level risks required contingency plans.
In our first quarterly report, we reported that all 24 mitigation plans had been approved but that
none of the contingency plans had been. As of September 25, 2009, that still remained the case.
The RRB continues to meet weekly and is preparing the contingency plans in two stages. The
first stage, currently underway, includes identifying triggers that will activate the contingency
plan and developing monitoring activities for each trigger. The second phase will determine
whether contingency actions developed in the first stage are feasible and, if they are, identify the
necessary resources to implement these actions. However, before the second phase begins, the
RRB plans to discuss the monitoring of risk mitigation plans and preparing a schedule to
complete the second phase of the contingency plans. Developing a contingency planning
schedule earlier would have helped the RRB prioritize and complete its contingency plans.
Although Census is making progress in its risk management activities, it is possible that
contingency plans will not be ready in time for the start of the operations and events they cover.


Census Staff Is Developing Plans to Address the Risk of an H1N1 Influenza Outbreak

Recognizing Census’s need to carry out its enumeration operations on schedule, the RRB has
discussed the potential impact of the H1N1 influenza virus. These discussions have centered on
the impact to staff at major facilities, such as Census headquarters in Suitland, Maryland, and the
National Processing Center in Jeffersonville, Indiana, as well as the hundreds of local Census
offices throughout the country: the data capture centers, call centers, regional census centers, and
the computer facility in Bowie, Maryland. Besides potentially affecting the critical and expensive
NRFU operation, an outbreak of the H1N1 influenza could disrupt smaller yet still important
field operations, such as Remote Alaska enumeration (occurring January–April 2010),
Update/Enumerate (March–May 2010), and Update/Leave (March 2010). According to Census
officials, impacts could range from an increase in temporary employee turnover to lower

                                                 16 

              OIG Quarterly Report to Congress, December 2009 


productivity rates, which could have both schedule and cost implications. At its meeting on
October 20, 2009, the RRB began reviewing draft mitigation plans for two risks regarding the
H1N1 influenza—one involving its impact on staff and contractors at centralized operations,
such as Census headquarters, and the other involving staff at its field offices across the country.




                                                 17 

              OIG Quarterly Report to Congress, December 2009 



                                      Appendix A: 

                          Objectives, Scope, and Methodology 

To satisfy the requirement for our second quarterly report on the 2010 Census, we have provided
an update on the status of 2010 Census activities with respect to schedule, cost, and risk
management activities. This information covers activities that occurred June–September 2009
and plans for activities moving forward.

To accomplish our objectives, we conducted a review of documentation, including monthly
status reports, activity schedules and associated change requests, program management reviews
for 2010 Census contracts, updates to plans for Census-managed activities such as paper-based
operations, financial management and status of funds reports, internal budget variance reports,
risk registers, and mitigation and contingency plans for program-level risks. We also attended
weekly schedule and risk management meetings and met with Census budget staff during this
reporting period.

We conducted this review August–December 2009, under the authorities of the Inspector
General Act of 1978, as amended, and Departmental Organization Order 10-13, dated August 31,
2006, as amended, and in accordance with the Quality Standards for Inspections (revised
January 2005) issued by the President’s Council on Integrity and Efficiency.




                                               18 

               OIG Quarterly Report to Congress, December 2009 



                                Appendix B: 

         Fieldwork Operations Managed by the Paper-Based Operations 

                               Control System 




Operation               Description of Activity
Remote Alaska           Temporary workers canvass remote, hard-to-reach areas of Alaska to
enumeration             enumerate households, group quarters, and transitory locations.
                        Enumerators visit group quarters to verify information such as addresses
Group Quarters          and number of residents and inform each location’s point of contact of
Advance Visit           the upcoming group quarters enumeration field operation.
                        Enumerators canvass certain areas of the country, update their address
                        lists and Census maps, verify and delete duplicate addresses, and
Update/Leave            deliver Census questionnaires to each unit they find, which respondents
                        mail back.
Enumeration of          Temporary workers visit transitory locations, such as campgrounds and
Transitory Locations    hotels, to interview and enumerate individuals lacking usual residences.

Remote Update/          Enumerators canvass targeted communities in northwest Maine similar
Enumerate               to the update/enumerate operation (see below).
                        Enumerators canvass targeted communities that have special
                        enumeration needs, such as housing units lacking conventional mailing
                        addresses (i.e., house numbers and street names). The enumerators
                        update the residential address list and Census Bureau maps, as well as
Update/Enumerate        complete a questionnaire for each housing unit. For Census 2000, these
                        areas included selected American Indian reservations, colonias (small,
                        usually rural Spanish-speaking communities), and resort areas with high
                        concentrations of seasonally vacant living quarters.
                        Enumerators visit group quarters, list the names of the people living or
Group Quarters          staying there, and distribute questionnaires for each person or a staff
Enumeration             member to complete, which are then collected a few days later.
                        Temporary workers visit households that did not return Census
Nonresponse
                        questionnaires to interview residents and complete questionnaires at
Follow-up
                        each housing unit.
                        Enumerators verify the status of addresses classified as vacant or
Vacant/Delete           nonexistent during nonresponse follow-up. Respondent information is
Check                   also collected when an address presumed to be vacant is found to be
                        occupied.
                        Temporary workers verify the existence of addresses of households that
Field Verification      returned questionnaires but were not on Census’s initial address lists.
Source: OIG analysis of U.S. Census Bureau information



                                                19
               OIG Quarterly Report to Congress, December 2009 



                                  Appendix C: 

           Address Canvassing Field Budget by Regional Census Center 



      Table C-1. Address Canvassing Production Regional Budgets vs. Actual 

                                 Expenditures 

                                                                Mileage
Regional              Wages           Wages       Budget          Costs        Mileage     Budget
Census             Budgeted           Actual      Spenta      Budgeted           Costs     Spenta
Center                    ($)             ($)        (%)             ($)     Actual ($)       (%)
Atlanta          $23,941,836     $24,001,909         100     $4,823,206     $5,912,210        123
Boston            18,816,893      19,655,254         104      3,758,353      3,687,618         98
Charlotte         24,932,808      24,849,069         100      5,058,697      6,877,752        136
Chicago           17,415,752      13,821,095          79      3,414,249      3,508,480        103
Dallas            20,947,790      21,680,481         104      4,162,783      5,982,437        144
Denver            18,821,344      20,079,617         107      3,643,155      6,828,284        187
Detroit           16,895,119      14,688,948          87      3,356,440      3,715,146        111
Kansas City       17,208,028      15,616,488          91      3,450,340      5,401,095        157
Los Angeles       13,700,686      13,970,564         102      2,723,497      2,076,348         76
New York          10,284,282      11,344,092         110      1,973,770        670,574         34
Philadelphia      15,641,427      15,331,051          98      3,130,290      2,865,441         92
Seattle           16,411,554      19,518,204         119      3,194,089      3,891,602        122
  Total          215,017,519     214,556,772         100     42,688,869     51,416,987        120
a
 Percentages have been rounded.
 

Source: OIG analysis of Address Canvassing Cost and Progress Reports (generated September 25, 

2009), U.S. Census Bureau
 





                                                20 

               OIG Quarterly Report to Congress, December 2009 



  Table C-2. Address Canvassing Quality Control Regional Budgets vs. Actual 

                               Expenditures 


                                                              Mileage
Regional             Wages                     Budget           Costs       Mileage     Budget
Census            Budgeted          Wages       Spent       Budgeted          Costs      Spent
Center                   ($)     Actual ($)       (%)              ($)    Actual ($)       (%)
Atlanta          $5,793,080     $8,182,627        141        $960,487    $3,011,284        314
Boston            4,078,471      5,754,118        141         709,308     1,707,992        241
Charlotte         5,496,046      7,967,874        145         973,826     3,505,554        360
Chicago           4,025,730      4,137,267        103         666,855     1,550,346       232.
Dallas            4,905,670      6,266,512        128         817,952     2,569,153        314
Denver            4,052,356      7,967,186        197         691,799     3,561,751        515
Detroit           3,921,926      4,154,317        106         657,277     1,657,059        252
Kansas City       3,859,407      4,508,692        117         667,587     2,295,534        344
Los Angeles       3,491,316      5,185,083        149         553,042       973,173        176
New York          2,652,829      3,249,329        122         402,328       308,958         77
Philadelphia      3,697,611      4,870,192        132         617,653     1,368,103        222
Seattle           3,843,591      5,924,321            154     626,556     1,636,924             261
 Total           49,818,033     68,167,518            137   8,344,670    24,145,831             289
Source: OIG analysis of Address Canvassing Cost and Progress Reports (generated September 25,
2009), U.S. Census Bureau




                                               21 

